No. 20-6162
IN THE
SUPREME COURT OF THE UNITED STATES
FRANK TRUJILLO,
Petitioner,
v.
UNITED STATES,
Respondent
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Tenth Circuit
CERTIFICATE OF SERVICE
I hereby certify as follows:
1.

I am an Assistant Federal Public Defender for the Districts of Colorado

and Wyoming, and I was appointed to represent the petitioner Frank Trujillo pursuant to the Criminal Justice Act of 1964, see 18 U.S.C. ยง 3006A.
2.

On January 12, 2021, in compliance with Supreme Court Rule 29.5(b),

copy of the accompanying Reply Brief in Support of Petition for Writ of Certiorari
were sent by email and Federal Express, next-day delivery, to:

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
3.

All parties required to be served have been served.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender
s/ Kathleen Shen
KATHLEEN SHEN
Assistant Federal Public Defender

Counsel of Record for the Petitioner
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002
kathleen_shen@fd.org

2

